                                                                             Report No. DODIG-2014-003




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              OCTOBER 22, 2013




                     Independent Auditor’s Report
                     of Department of State Global
                     Health and Child Survival
                     Funds Transferred to DoD for
                     Human Immunodeficiency
                     Virus / Acquired Immune
                     Deficiency Syndrome Prevention




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                         Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                             4800 MARK CENTER DRIVE
                          ALEXANDRIA, VIRGINIA 22350-1500


                                                                        October 22, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE PERSONNEL AND READINESS
              ASSISTANT SECRETARY OF DEFENSE (HEALTH AFFAIRS)
              NAVAL INSPECTOR GENERAL
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY
              DEPARTMENT OF STATE OFFICE OF THE U.S. GLOBAL
              	  AIDS COORDINATOR

SUBJECT:	 Independent Auditor’s Report of Department of State Global Health and
          Child Survival Funds Transferred to DoD for Human Immunodeficiency
          Virus / Acquired Immune Deficiency Syndrome Prevention
          (Report No. DODIG-2014-003)

We are providing this report for information and use. No written response to this report
was required. Therefore, we are publishing this report in final form.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5945 (DSN 329-5945).




	                                             Lorin T. Venable, CPA
                                              Assistant Inspector General
                                              Financial Management and Reporting




                                                                                       DODIG-2014-003 │ 1
                                          INSPECTOR GENERAL
                                        DEPARTMENT OF DEFENSE
                                        4800 MARK CENTER DRIVE
                                     ALEXANDRIA, VIRGINIA 22350-1500


                                                                       October 22, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE PERSONNEL AND READINESS
              ASSISTANT SECRETARY OF DEFENSE (HEALTH AFFAIRS)
              NAVAL INSPECTOR GENERAL
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY
              DEPARTMENT OF STATE OFFICE OF THE U.S. GLOBAL
              	  AIDS COORDINATOR

SUBJECT:	 Independent Auditor’s Report of Department of State Global Health and
          Child Survival Funds Transferred to DoD for Human Immunodeficiency
          Virus / Acquired Immune Deficiency Syndrome Prevention
          (Report No. DODIG-2014-003)

Public Law 111-117, “The Consolidated Appropriations Act, 2010,” under Division F,
“Department of State, Foreign Operations, and Related Programs Appropriations
Act of 2010,” December 16, 2009, appropriated funds to the Department of
State (DoS) for the purpose of Human Immunodeficiency Virus (HIV)/Acquired
Immune Deficiency Syndrome (AIDS) prevention, treatment, control, and research
(to include development of programs and assisting communities). Further, this
public law requires the inspector general of each agency receiving funds to perform
periodic program and financial audits of the use of such funds.

The DoS Office of the U.S. Global AIDS Coordinator (OGAC) entered into Memorandums
of Agreement (MOAs) with DoD to transfer Global Health and Child Survival (GHCS)*
funds appropriated under the DoS Foreign Operations and Related Programs
Appropriations Act. The purpose of these MOAs is to fund efforts to achieve the
HIV/AIDS prevention, care, and treatment goals of the U.S. Leadership Act and the
President’s Emergency Plan for AIDS Relief (PEPFAR). Two DoD programs—the DoD
HIV/AIDS Prevention Program (DHAPP) and the Military HIV Research Program
(MHRP)—receive PEPFAR funds provided from DoS. See the Attachment for
additional background and MOA information.




	*	
      GHCS funds are FY 2008-2011 no-year funds.




                                                                                      DODIG-2014-003 │ 3
                 We performed this review-level attestation in accordance with attestation standards
                 established by the American Institute of Certified Public Accountants and in
                 compliance with generally accepted Government auditing standards. Those standards
                 require that we plan and perform the attestation to obtain sufficient, appropriate
                 evidence to provide a reasonable basis for our findings and conclusions based on our
                 attestation objective. We believe the evidence obtained provides a reasonable basis
                 for our findings and conclusions based on our attestation objective. A review-level
                 attestation is substantially less in scope than an examination done to express an
                 opinion on the subject matter. Accordingly, we do not express such an opinion.

                 We reviewed $47,513,442 (77.0 percent) of the $61,702,518 in DoD GHCS
                 disbursements        made    over    a   7-month   period.   We    nonstatistically      selected
                 $20,111,632 (67.9 percent) of the $29,626,435 in DHAPP disbursements from
                 May 24, 2012, to January 2, 2013, and $27,401,809 (85.4 percent) of the
                 $32,076,082 in MHRP disbursements from June 1, 2012, to December 31, 2012.
                 See the table for a summary of DHAPP and MHRP GHCS disbursements.

                 Table. Summary of DHAPP and MHRP GHCS Disbursements and DoD OIG Sample Selection
                                                                       DoD OIG               Percentage of
                            Program          Total Disbursements*   Sample Selection         Disbursements
                     DHAPP                           $29,626,435          $20,111,632            67.9%
                     MHRP                            $32,076,082          $27,401,809            85.4%
                             Total                   $61,702,518          $47,513,442            77.0%

                 *Navy disbursements from May 24, 2012, to January 2, 2013, and Army disbursements from
                 June 1, 2012, to December 31, 2012.

                 Based on our review of DHAPP and MHRP disbursements, nothing came to our
                 attention that caused us to believe that GHCS funds transferred from DoS to DoD for
                 HIV and AIDS prevention, care, and treatment were not disbursed in accordance
                 with the goals set forth in the U.S. Leadership Act and PEPFAR.

                 We coordinated a discussion draft of this report with officials from Assistant Secretary
                 of Defense (Health Affairs) (ASD [Health Affairs]), U.S. Army Medical Command,
                 U.S. Army Medical Research Materiel Command, Walter Reed Army Institute of
                 Research (WRAIR), and the Naval Health Research Center (NHRC).  We considered
                 management comments when preparing the final report.




4 │ DODIG-2014-003
This report is intended solely for the information and use of the ASD (Health
Affairs), WRAIR, and NHRC and is not intended to be and should not be used by
anyone else. However, this report is a matter of public record, and its distribution
is not limited.




	                                          Lorin T. Venable, CPA
                                           Assistant Inspector General
	                                          Financial Management and Reporting

Attachment:
As stated




                                                                                   DODIG-2014-003 │ 5
                 Attachment. Program Background and Flow
                 of Funds From DoS OGAC to DoD
                 Public Laws
                 Public Law 108-25, “United States Leadership Against HIV/AIDS, Tuberculosis, and
                 Malaria Act of 2003,” May 27, 2003, establishes a 5-year emergency plan for AIDS
                 relief, known as the PEPFAR, to confront HIV/AIDS with the goals of preventing,
                 treating, and providing humane care for millions of people suffering from HIV/AIDS.

                 Public Law 110-293, “Tom Lantos and Henry J. Hyde United States Global
                 Leadership Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of
                 2008,” July 30, 2008, amended Public Law 108-25. The purpose of this public law is
                 to strengthen and enhance the United States’ response to the HIV/AIDS pandemic
                 and other preventable infectious diseases.

                 Public Law 111-117, “Consolidated Appropriations Act, 2010,” under Division F,
                 “Department of State, Foreign Operations, and Related Programs Appropriations
                 Act of 2010,” December 16, 2009, appropriates funds to DoS for the purpose of
                 HIV/AIDS prevention, treatment, control, and research (to include development of
                 programs and assisting communities). Further, this public law requires the inspector
                 general of each agency receiving funds to perform periodic program and financial
                 audits of the use of such funds.


                 FY 2008 through 2011 Memorandums of Agreement
                 Between DoS and DoD
                 The MOAs required DoD to contribute to a number of reports on the progress of
                 their PEPFAR programs and the use of the funds allocated to DoD. Additionally, the
                 MOAs required DoD to keep thorough records and use the funds in accordance with
                 generally accepted Government accounting principles.

                 DoS OGAC provided initial funding in the FY MOAs and additional funding in
                 subsequent amendments. See the following table for a summary of the amount of
                 funding provided from DoS to DoD.




6 │ DODIG-2014-003
Table. Summary of the Dates and Funding Amounts for the GHCS MOAs and
Subsequent Amendments
                                                      Date Signed1                  Cumulative Funding Amount2
 FY 2008 MOA                                        January 28, 2008                                     $99,533,658
 FY 2009 MOA                                       February 13, 2009                                   $125,806,882
 FY 2010 MOA                                          April 30, 2010                                   $121,791,347
 FY 2011 MOA                                          April 11, 2011                                   $148,031,848
                   Total                                                                               $495,163,735
	1	
      Date of the latest signature on the original FY MOAs.
	2	
      Total funding amount as of May 22, 2013, including original FY MOA amounts and all subsequent amendments.


DoD HIV/AIDS Prevention Program
DHAPP is the DoD executive agent for the global HIV/AIDS prevention, care, and
treatment for foreign militaries.                   DHAPP’s mission is to reduce the incidence of
HIV/AIDS among uniformed personnel and to assist in the development and
implementation of military-specific HIV prevention programs. To carry out their
mission, DHAPP oversees the contributions of a variety of DoD organizations and
specialized DoD institutions. DHAPP’s responsibilities include day-to-day direction
of the DoD effort to assist foreign militaries, administering funding, conducting
training, technical assistance, and the submission of periodic reports to OGAC.

DHAPP was under the command of NHRC in San Diego, California. In addition, DHAPP
used the Naval Supply Systems Command Fleet Logistics Centers to administer their
contracts and grant agreements.

As of May 2013, DHAPP received $211,907,240 in GHCS funding under the FY 2008
through FY 2011 MOAs and disbursed $112,224,076 of the funds.


U.S. Military HIV Research Program
MHRP, the second program receiving funds, is a partner in international efforts to
combat HIV, and it has a dual mission to develop a preventive HIV vaccine for
U.S. military personnel and for the global community. The program provides
prevention, care, and treatment through the PEPFAR, including international
laboratory and clinical research capabilities. DHAPP provides oversight of the
contributions of the MHRP.




                                                                                                                       DODIG-2014-003 │ 7
                 MHRP was under the command of WRAIR in Silver Spring, Maryland. MHRP used
                 U.S. Army Medical Research Acquisition Activity and the Naval Supply Systems
                 Command Fleet Logistics Centers to administer grant agreements. For example, grants
                 with the Henry M. Jackson Foundation, Stichting PharmAccess International, and
                 Health Initiatives for the African Safety and Stability were used to obligate and expend
                 Army GHCS funds.

                 As of June 2013, MHRP received $283,256,495 in GHCS funding under the FY 2008
                 through FY 2011 MOAs and disbursed $209,605,838 of the funds.


                 Flow of Funds
                 DoS officials submitted a Standard Form 1151, “Non-Expenditure Transfer
                 Authorization,” to the Department of Treasury, which started the transfer of
                 GHCS funds from DoS to DoD. DoD transferred funds within the department
                 through funding authorization documents (FADs).

                 Specifically, the DoS used the SF 1151 to transfer GHCS funds to the Under
                 Secretary of Defense (Comptroller) [USD (Comptroller)]. The USD (Comptroller)
                 transferred the funds to ASD (Health Affairs) using a FAD.        At the ASD (Health
                 Affairs) level, the GHCS funds were split between the Navy and Army based on the
                 MOA. Utilizing another FAD, the ASD (Health Affairs) transferred the Navy’s funds
                 to the Navy Bureau of Medicine and Surgery and transferred the Army’s funds to the
                 U.S. Army Medical Command. The Navy and Army used additional FADs to transfer
                 funds within their organizations.    For example, the Navy Bureau of Medicine and
                 Surgery used a FAD to transfer funds to the Navy Medicine Support Command. The
                 Navy Medicine Support Command used a FAD to transfer funds to the Navy Medical
                 Research Center. The Navy Medical Research Center then transferred the GHCS funds
                 to NHRC using a memorandum referred to as the Operational Target Authority
                 memo. In contrast, U.S. Army Medical Command used only one FAD for each transfer
                 of funds to WRAIR.




8 │ DODIG-2014-003
The following figure illustrates the flow of funds from DoS to the DoD programs at
NHRC and WRAIR.



                               Department of State


                             Department of Treasury


                                USD (Comptroller)


                               ASD (Health Aﬀairs)


 Navy Bureau of Medicine and Surgery             U.S. Army Medical Command


   Navy Medicine Support Command                        WRAIR/MHRP


     Navy Medical Research Center


              NHRC/DHAPP

Source: DoD OIG




                                                                                     DODIG-2014-003 │ 9
                 Acronyms and Abbreviations
                                     AIDS Acquired Immune Deficiency Syndrome
                      ASD (Health Affairs) Assistant Secretary of Defense for Health Affairs
                                  DHAPP DoD HIV/AIDS Prevention Program
                                      DoS Department of State
                                      FAD Funding Authorization Document
                                    GHCS Global Health and Child Survival
                                      HIV Human Immunodeficiency Virus
                                   MHRP Military HIV Research Program
                                    MOA Memorandum of Agreement
                                    NHRC Naval Health Research Center
                                    OGAC Office of the U.S. Global AIDS Coordinator
                                  PEPFAR President’s Emergency Plan for AIDS Relief
                       USD (Comptroller) Under Secretary of Defense (Comptroller)
                                   WRAIR Walter Reed Army Institute of Research




10 │ DODIG-2014-003
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
